IN THE SUPREME COURT OF THE UNITED STATES

NO. _______

Kevin Thomas Seigler, Petitioner,
v.
UNITED STATES OF AMERICA, Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner Kevin Thomas Seigler asks leave to file the attached Petition for
Writ of Certiorari, without prepayment of costs, and to proceed in forma pauperis.
Pursuant to the provisions of the Criminal Justice Act, Petitioner was previously
granted leave to proceed in both the United States District Court for the Western
District of Virginia and the United States Court of Appeals for the Fourth Circuit on
this case.
Dated:

June 1, 2021
By Counsel

/s/ John E. Davidson
Counsel for Petitioner
John E. Davidson
Davidson & Kitzmann, PLC
211 East High Street
Charlottesville, Virginia 22902
(434) 972-9600
jed@dklawyers.com

